No. 20-7900
IN THE

MONIQUE A. LOZOYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

I, James H. Locklin, hereby certify that on August 19, 2021, copies of the Reply
Brief for Petitioner was mailed, postage prepaid, to the Solicitor General of the
United States, Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001, counsel for the respondent.
In addition, copies of these documents were emailed to the Solicitor General at
SupremeCtBriefs@usdoj.gov.

August 19, 2021

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

JAMES H. LOCKLIN *
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

